NO.
IN THE

SUPREME COURT OF THE UNITED STATES

BRANDON AARON THOMAS, PETITIONER
v.

STATE OF CALIFORNIA, RESPONDENT

ON THE PETITION FOR WRIT OF CERTIORARI
TO THE COURT OF APPEAL OF THE STATE OF CALIFORNIA, ©
SIXTH APPELLATE DISTRICT

CERTIFICATE OF SERVICE FOR
PETITION FOR WRIT OF CERTIORARI AND FOR,
MOTION TO PROCEED IN FORMA PAUPERIS

I, Arthur Dudley, a member of the Bar of this Court, hereby certify that on the 28th
day of September 2021, one copy of the Petition for Writ of Certiorari, and one copy of the
Motion for Leave to Proceed In Forma Pauperis, in the above-entitled case, were mailed first
class postage prepaid to DAVID M. BASKIND, Deputy Attorney General of the State of
California, at 455 Golden Gate Avenue, Suite 11000, San Francisco, California 94102-7004,
(email address: David.Baskin@doj.ca.gov) counsel for respondent herein. I further certify
that all parties required to be served have been served.

  

Dated: September 28, 2021

California State Bar Number 056921
Page & Dudley

Attorneys at Law

605 Center Street

Santa Cruz, California 95060-3804
(831) 429-9966

(831) 427-2132 (fax)
adudley@psdlaw.com (email)
Counsel for Record for Petitioner
